Supreme Court, U.S.
FILED

No.

1-5986

OCT 1 2 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,
v.
PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE
Respondent
On Petition for Writ of Certiorari to the
The Supreme Court of Virginia
Record No. 201103
PETITION FOR WRIT OF CERTIORARI

KATHLEEN C. HAMPTON, Pro Se
P.O. BOX 154
BLUEMONT, VIRGINIA 20135
(540) 554-2042
KHAMPTON47@YAHOO.COM

QUESTIONS PRESENTED
Whether the Supreme Court of Virginia’s Opinion that “there is no reversible
error in the judgment complained of’ in the Loudoun County Circuit Court s Order
granting Summary Judgment and possession of Petitioner s property to PROF2013-S3 Legal Title Trust (PROF) in an unlawful detainer action, properly
addressed the questions regarding the rules on granting summary judgment or the
constitutionality of the law, either under Virginia’s Constitution or the Constitution
of the United States, involving the life and liberty of Petitioner, and particularly to
her Constitutional Rights to a “fair” trial by juryj and as to whether the Unlawful
Detainer Statutes violate citizens’ Constitutional Rights to Due Process, and,
therefore, the constitutionality of non-judicial foreclosures, as noted in this case.

PARTIES TO THE PROCEEDING
PETITIONER, KATHLEEN C. HAMPTON, an individual natural person, citizen of
the United States and the Commonwealth of Virginia, is acting pro se, is not an
attorney and has had very minimal contact with the legal system prior to this
action. Ms. Hampton was defendant in the Loudoun County Circuit Court and the
General District Court and Appellant in the Supreme Court of Virginia.

RESPONDENT,

PROF-2013-S3

LEGAL TITLE

TRUST,

BY U.S.

BANK

NATIONAL ASSOCIATION, AS LEGAL TITLE TRUSTEE, was plaintiff in the
Loudoun County Circuit Court and General District Court and Appellee in the
Supreme Court of Virginia; and was represented by FAY SERVICING, LLC, AS
SERVICING AGENT AND ATTORNEY-IN-FACT FOR PROF-2013-S3 LEGAL
TITLE TRUST, BY U.S. BANK NATIONAL ASSOCIATION, AS LEGAL TITLE
TRUSTEE; and SAMUEL I. WHITE, P.C., AS ORIGINAL AND SUBSTITUTE
TRUSTEE, and COUNSEL for PROF-2013-S3 LEGAL TITLE TRUST, BY U.S.
BANK NATIONAL ASSOCIATION, AS LEGAL TITLE TRUSTEE throughout the
proceedings below in the Loudoun County Circuit Court and the General District
Court and as COUNSEL for Appellee in the Supreme Court of Virginia.
CORPORATE DISCLOSURE STATEMENT
Pursuant to U.S. Supreme Court Rule 29.6, Petitioner Kathleen C. Hampton is an
individual with no corporate affiliation.

ii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

n

CORPORATE DISCLOSURE STATEMENT

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

Vll

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

QUESTIONS PRESENTED

3

STATEMENT OF THE CASE

3

STATEMENT OF THE FACTS

6

CONSTITUTIONAL AND STATUTORY PROVISIONS DETAILED

14

AUTHORITIES AND ARGUMENTS

28

REASONS FOR GRANTING THE PETITION

34

CONCLUSION

40
INDEX TO APPENDICES
App. Page

Appendix A Circuit Court of Loudoun County Final Order
granting Summary Judgment and possession to the
Property to PROF-2013-S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful
detainer action, Civil No. 118604-00, dated February 7, 2020

1

Appendix B Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal Record No. 201103, dated March 23, 2021

10

iii

App. Page
Appendix C Supreme Court of Virginia Denial of the Petition for Rehearing,
Record No. 201103, dated May 14, 2021

11

Appendix D Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201103, dated December 11, 2020

12

From the Companion Petition:
Appendix E Circuit Court of Loudoun County Final Order granting
Demurrerto PROF-2013-S3 Legal Title Trust, by
US Bank National Association, as Legal Title Trustee,
and dismissed with prejudice to Hampton’s Counterclaims and
f
Sanctions, Civil No. 118605-00, dated February 7, 2020

13

Appendix F Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201105, dated March 23, 2021

22

Appendix G Supreme Court of Virginia Denial oi the Petition for Rehearing,
Record No. 201105, dated May 14, 2021

23

Appendix H Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201105, dated December 11, 2020

24

Other Orders from Proceedings in the Circuit Court:
Appendix I Circuit Court of Loudoun County Order dated February 7,
2020, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum
ofLaw, filed December 20, 2019

25

Appendix J Circuit Court of Loudoun County Order dated December 19,
2019, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial, filed November 18, 2019

27

Appendix K Circuit Court of Loudoun County Order dated November 11,
2019, denying Hampton’s Motion for Reconsideration and
Supporting Memorandum ofLaw, filed October 25, 2019, and
Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019

29

iv

App. Page
Appendix L Circuit Court of Loudoun County Prefer dated October 4, 2019,
denying Hampton’s Motion to Dismiss, filed September 18, 2019

31

Appendix M Constitutional and Statutory Provisions Involved

33

Petitioner’s filings to all Orders above*.

37

In the Supreme Court of Virginia-

38

Appendix N Appellant’s Petition for Rehearing filed in the Supreme Court
of Virginia, Record No. 201103, electronically April 6, 2021

39

Appendix O Appellant’s Notes of Oral Argument before the Supreme Court
of Virginia, as presented to Justices Lemon, Powell & Chafin,
Record No. 201103, telephonically February 16, 2021

50

Appendix P Appellant’s Petition for Appeal filed in the Supreme Court
of Virginia, Record No. 201103, posted September 8, 2020

58

Appendix Q Appellant’s Response to Motion to Dismiss Petition for Appeal
filed in the Supreme Court of Virginia, Record No. 201103,
electronically October 10, 2020

101

In the Circuit Court of Loudoun County Virginia-

106

Appendix R Hampton’s Objections to the Final Order on Summary
Judgment in the Unlawful Detainer Action, Civil No. 118604-00,
filed February 21, 2020 (without Exhibits 43-E & 43-G re
Corrective Affidavit)

107

Appendix S Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial Supporting Memorandum ofLa w
(Civil No. 118604-00 & Companion Civil No. 118605-00)
filed December 20, 2019 (without Exhibits 24[+24a*24d] re
Cease & Desist and Exhibit 38 re Bloomberg Audit)

122

Appendix T Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial {Civil No. 118604-00 & Companion
Civil No. 118605*00) filed November 18, 2019 (without
excerpt transcript on rulings from October 18, 2019 hearing)

138

App. Page
Appendix U Hampton’s Motion for Reconsideration ofFurther Support
to Memorandum ofLaw (Civil No. 118604-00 & Companion
Civil No. 118605*00) filed November 1, 2019 (without the
referenced 209 pages of evidence/exhibits identified therein
from related Civil Case No. 98163-00)

146

Appendix V Hampton’s Motion for Reconsideration and Supporting
Memorandum ofLawiCivil No. 118604-00 & Companion
Civil No. 118605-00) filed October 25, 2019 (without the
hearing transcript of January 3, 2017, and Hampton’s
Motion for Reconsideration and Memorandum in Support
ofMotion for Reconsideration, filed January 10, 2017, in
related Civil Case No. 98163-00)

151

Appendix W Hampton’s Motion to Dismiss (Civil No. 118604*00 &
Companion Civil No. 118605-00) filed September 18, 2019
(with #6 Transcript of Hearing of October 4, 2019, together
with List of Exhibits/Documents given to Court and the 1st
& 2nd noted documents thereon- Notes read at GDC 11-14*18
hearing & Hampton’s related Reply Brief to SCOTUS 9-25-19
[No. 18-9127])

vi

175
180
192
193
195

TABLE OF AUTHORITIES
Ashcroft v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937, 1949 (2009)

Page
24, 25

Bell Atlantic Corp. v. Twonibly,; 550 U.S. 544, 570 (2007)

25

Carpenter v. Longan, 16 Wall. 271, 83 U.S. 271, 274,
21 L.Ed. 313 (1872)

8, 30, 38

Cleveland Board ofEducation v. Loudermill, 470 U.S. 532,
538-541 (1985)

19

Corbett v. Nutt. 59 Va. (18 Gratt.) 624, 648 (1868)

29

Edwards v. City of Goldsboro, 178 F.3d 231, 243-44 (4th Cir. 1999)

25

Flora Daun Fowler, Appellant v. Maryland State Board ofLaw
Examiners, No. 77-801, 434 U.S. 1043, 98 S.Ct. 844,
54 L.Ed2d 793 (1977)

26

Green v. McElroy, 360 U.S. 474, 79 S.Ct. 1400 (1959)

26

Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964)

26-27, 34-35

Hurtado v. California, 110 U.S. 516, 532 (1884)

17

Jacobson v. BayviewLoan ServicingLLC, 371 P.3d 397,
383 Mont. 257 (2016)

33

N.L.R.B. v. Bums, 207 F.2d 434 (8th Cir. 1953)

25

Niemotko v. Maryland, 340 U.S. 268, 271 (1951)

15

Parrish v. Federal National Mortgage Association, 292 Va. 44,
787 S.E.2d 116 (2016)

14, 29-31

Poe v. Ullman, 367 U.S. 497, 540, 541 (1961)

17

Swift and Co. v. United States, 308 F.2d 849 (7th Cir. 1962)

34

Time, Inc. v. Pape, 402 U.S. 279, 284 (1971)

15

Tolan v. Cotton, 134 S.Ct. 1861, 1866 (2014)

28

Whitlow v. Mountain Trust Bank, 215 Va. 149, 152,
207 S.E.2d 837, 840 (1974)

13, 32, 35

Wigod v. Wells Fargo Bank, 673 F.3d 54 (7th Cir. 2012)

16, 33-34

vii

J

Page
CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment V
U.S. Const. Amendment VII
U.S. Const. Amendment XIV §1
Va. Const., Article I, §1
Va. Const., Article I, §11

14,
19
17,
23,
19,

STATUTES
28 U.S.C. §1257(a)
28 U.S.C. §210l(c)
28 U.S.C. §2403(b)
Va. Code §6.2-1614
Va. Code §6.2-1629
Va. Code §55-59(9)

9

RULES
U.S. Supreme Court Rule 23.4
Virginia Supreme Court Rule 3-20

22
28

17, 26
23, 26
27
23, 27

2
2
3
7
7

OTHER
Friendly, “Some Kind of Hearing,” 123 U.Pa.L.Rev. 1267,
1279-95 (1975)
The U.S. National Archives, “The Bill of Rights Fifth Amendment - Rights of Persons”
The Making ofModern Law- U.S. Supreme Court
Records and Briefs, 1832-1978
William & Mary Bill of Rights Journal [Val. 22:1221 2014]
pp. 1245-1246

viii

20

14-18
25
24

PETITION FOR WRIT OF CERTIORARI
Petitioner, Kathleen C. Hampton, pro se, respectfully petitions for a Writ of
Certiorari to review the Opinion of the Supreme Court of Virginia that “there is no
reversible error in the judgment complained of,” on the Loudoun County Circuit
Court’s Order granting Summary Judgment and possession in an unlawful detainer
action, thereby denying Petitioner’s Constitutional Rights to Trial by Jury and her
Constitutional Rights to Due Process and the Protections of the Law.
OPINIONS BELOW
Circuit Court of Loudoun County Final Order granting Summary Judgment and
possession to the Property to PROF-2013-S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful detainer action, Civil
No. 118604-00, dated February 7, 2020. [unpublished] (App. A)
Supreme Court of Virginia Opinion “there is no reversible error in the judgment
complained of’ and Refused the Petition for Appeal, Record No. 201103, dated
March 23, 2021. [unpublished] (App. B)
Supreme Court of Virginia Denial of the Petition for Rehearing, Record No. 201103,
dated May 14, 2021. [unpublished] (App. C)
Supreme Court of Virginia Denial of Appellee’s Motion to Dismiss, Record No.
201103, dated December 11, 2020. [unpublished] (App. D)
In Companion CaseCircuit Court of Loudoun County Final Order granting Demurrer to PROF-2013*S3
Legal Title Trust, by US Bank National Association, as Legal Title Trustee, and
dismissed with prejudice to Hampton’s Counterclaims and Sanctions, Civil No.
118605-00, dated February 7, 2020. [unpublished] (App. E)
Supreme Court of Virginia Opinion “there is no reversible error in the judgment
complained of’ and Refused the Petition for Appeal, Record No. 201105, dated
March 23, 2021. [unpublished] (App. F)
Supreme Court of Virginia Denial of the Petition for Rehearing, Record No. 201105,
dated May 14, 2021. [unpublished] (App. G)
1

Supreme Court of Virginia Denial of Appellee’s Motion to Dismiss, Record No.
201105, dated December 11, 2020. [unpublished] (App. H)
Further in the Circuit CourtCircuit Court of Loudoun County Order dated February 7, 2020, denying Hampton’s
Motion for Rehearing or in the Alternative Motion for a Mistrial Supporting
Memorandum ofLaw, filed December 20, 2019. [unpublished] (App. I)
Circuit Court of Loudoun County Order dated December 19, 2019, denying
Hampton’s Motion for Rehearing or in the Alternative Motion for a Mistrial, filed
November 18, 2019. [unpublished] (App. J)
Circuit Court of Loudoun County Order dated November 11, 2019, denying
Hampton’s Motion for Reconsideration and Supporting Memorandum ofLaw, filed
October 25, 2019, and Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019. [unpublished] (App. K)
Circuit Court of Loudoun County 6W&r dated October 4, 2019, denying Hampton’s
Motion to Dismiss, filed September 18, 2019. [unpublished] (App. L)
STATEMENT OF JURISDICTION
The judgment of The Supreme Court of Virginia on a Petition for Rehearing
was entered on May 14, 2021. (App. C)
The judgment of The Supreme Court of Virginia on the Petition for Appeal
was entered on March 23, 2021. (App. B)
This Court’s jurisdiction is invoked under 28 U.S.C. § 1257(a) and, under
§210l(c), this petition was timely filed within one hundred fifty (150) days after the
judgment on the Petition for Rehearing, dated May 14, 2021, pursuant to Supreme
Court Rules 13.1 and 30.1.
Pursuant to U.S. Supreme Court Rules 14.1(e)(v) and 29.4(c), this petition
draws into question the constitutionality of the process not the constitutionality of a
state statute unless the statutes define the process. Rule 29.4(c) does not appear to
2

apply. However, as 28 U.S.C. §2403(b) may apply, a copy of the petition has been
served on the State Attorney General.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Pertinent constitutional and statutory provisions are set forth in the
Appendix to this petition (App. M).
QUESTIONS PRESENTED
Whether the Supreme Court of Virginia’s Opinion that “there is no reversible
error in the judgment complained of’ in the Loudoun County Circuit Court’s Order
granting Summary Judgment and possession of Petitioner’s property to PROF*
2013*S3 Legal Title Trust (PROF) in an unlawful detainer action, properly
addressed the questions regarding the rules on granting summary judgment; or the
constitutionality of the law, either under Virginia’s Constitution or the Constitution
of the United States, involving the life and liberty of Petitioner, and particularly to
her Constitutional Rights to a “fair” trial by jury; and as to whether the Unlawful
Detainer Statutes violate citizens’ Constitutional Rights to Due Process, and,
therefore, the constitutionality of non-judicial foreclosures, as noted in this case.
STATEMENT OF THE CASE
As my “Opening Statement,” I should like to advise that I was raised to never
lie and, thus, I never do! You can always trust that what I have to say is the truth
as I have seen it. Petitioner also wishes to apologize for not knowing the law to a
point that I can argue cases or otherwise, but I was raised and taught right from
wrong, as no doubt you were as well. Your path has led you here to the biggest stage
of “Equal Justice Under Law,” and as the final arbiter of the law, the Court is
3

charged with ensuring the American people the promise of equal justice under law
and, thereby, also functions as guardian and interpreter of the Constitution.
My path has led me here before you. I only hope that you can see the truth
and, therefore, the wrongs that have been harshly placed upon me by the failure of
the lower courts to recognize the wrongdoing of the banks and such, who have
abused the law. For if this case is once again refused, or passed over, that could not
possibly be considered “equal justice under the law.” That would equate to “no
justice” and laws that are not protective and, thus, UNconstitutional!
Further, I am a pro se litigant, who could not possibly afford an attorney, on
my limited income, but I should not be punished for not knowing the law, as you or
attorneys, or your clerks, do. I don’t make excuses for not knowing ... I just don’t
feel someone like myself, or even someone this court may consider in a different
position, is expected to know the law; but equal justice clearly means I am entitled
to equal protection and unless the facts are judged instead of the pleadings, there is
“no justice.” It seems all prior courts have only judged me on pleadings, which no
doubt I lack some ability to do right, but the truths to the allegations or facts are
what this case should be based on. Again, I do not lie!
And yes, I do feel discriminated against, not so much as a woman or an elder
but as a pro se litigant, who has no clerks or ability to access the law, where the law
has even played its part in “unlawfully taking” my home and leaving me “homeless.”
I understand that the court can only select a certain number of significant cases,

4

but “We the People” (and I do stand for all the People, especially in like situations,
either past, present or future) need this case “heard” on its truths/merits.
My biggest fear now is that, with the ongoing problems of the Covid-induced
foreclosure eviction crisis looming, our country and its judicial system will fail to
protect its citizens and will, once again, allow the banks, trusts or trustees to profit
from the oncoming massive foreclosures that are predicted. There is considerable
reason to believe another housing crisis is coming given the huge loss of jobs during
the Covid-19 Pandemic. The earlier foreclosure crisis was devastating and I am
obviously proof, still, as a remnant of the predatory lending that caused that Great
Recession.
Hampton has been continuously denied the federal mandated remedies
(namely, the HAMP modification, enacted on her birthday in 2009), when she was
first approved for the same in 2009, under Fannie Mae Guidelines, but never
extended the same. Under further Consent Orders of 2011, and the Independent
Foreclosure Review (IFR) of 2012, the banks were to follow the OCC’s Financial
Remediation Framework

IFR and were mandated to extend that HAMP

modification approved earlier, but failed to do so. Under those Consent Orders (not
related to the National Mortgage Settlement), I had a “right to sue institutions who
have violated the law,” but again the courts have denied me, via demurrers, to
exercise that right. To be continuously denied to be heard, on those prior mandated
remedies by Consent Orders, petitioner believes violates her Constitutional rights

5

to “due process.” Even the Deed of Trust (DOT) calls for these mandates under all
conditions precedent prior to a foreclosure.
As we all know, these corporations are artificial entities. They have no
sovereignty under the Constitution; they are not mentioned in the Constitution, the
word “company” or “corporation” or “trust.” The Preamble starts “We the people,”
not “We the Congress” or “We the corporations.”
Here, and more importantly than ever before, this case should be addressed
quickly so that citizens might be protected before they lose their homes as I have.
With the above question presented, Petitioner feels that the Supreme Court
of Virginia has left the question for this superior court to decide as between
Virginia’s Constitution and the Constitution of the United States that involve the
life and liberty of Petitioner, particularly as she has been deprived of her home and
property and, as such, has become “homeless,” an unconscionable position for her
an elder — to be put in during a pandemic, particularly where the courts have NOT
PERMITTED her due process via her scheduled and cancelled jury trial and
DENIED her presenting her preponderance of the evidence and having a jury serve
“justice” by ruling on it.
As quoted from Petitioner’s Petition for Appeal before the Supreme Court of
Virginia (Appendix P, page 6 therein)“STATEMENT OF THE FACTS
This is an Unlawful Detainer suit resulting from a “wrongful” non­
judicial foreclosure, that no court has recognized or set aside, which was
prematurely filed and charged against Hampton, and was also prematurely
decided by the GDC prior to final decisions in higher courts on Hampton’s
6

appeals of her case. Hampton was lead to believe that by appealing the GDC
decisions, she would have a Trial by Jury, in a court of equity, as a
Constitutional right? and, thus, her costly Appeal.
Hampton notes here that the twenty minute allotted time to argue at
hearing on PROFs Motions for Summary Judgment and Demurrer, was
insufficient to present all the evidence that would have been provided in her
three-day Trial by Jury. It would appear the court did not consider all the
evidence, for there was “sufficient” evidence presented by Hampton in
“submitted” Discovery Admissions, from both sides, and her Exhibits A - T
thereto, to show the Assignment of the Deed of Trust (“DOT”) and the Deed of
Foreclosure (“DOF”) were materially defective and in dispute and PROF was
not entitled to Summary Judgment or possession. Those motions were
“fatally” decided, and prevented Hampton’s “Constitutional Rights” to a Trial
by Jury.”
How could Virginia’s Supreme Court conclude “there is no reversible error in
the judgment complained of’ where the evidence clearly demonstrates that in a de
novo review1. The Deed of Trust (DOT) should have been found as void ab initio
Appendix W’s attachment presented at the hearing on Hampton’s Motion to
Dismiss as a copy of her Reply Brief to SCOTUS 9-25-19 [No. 18-9127] from
pages 1-2:
“As to Countrywide (“CW”) and the origination of Hampton’s loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices;
authority of the Attorney General: A. ... no person that is engaged in
the business of originating residential mortgage loans in the
Commonwealth shall use any deception, fraud, false pretense, false
promise, or misrepresentation in connection with a mortgage loan
transaction, (emphasis added)
Hampton was deceived, fraud is evident in the transaction staged with
HSBC, and she was sold a re-finance loan they clearly knew was subprime
and/or unaffordable.
<
CW’s wrongdoing, once again, is further evidenced in the Deed of
Trust, where:
“Under Code of Virginia Section 6.2-1614. Prohibitions applicable to
mortgage lenders and mortgage brokers. No mortgage lender ... shall

7

1. Obtain any agreement or instrument in which blanks are left to be
filled in after execution; ... 5. ... submitting false information in
connection with an application for the mortgage loan, breaching any
representation or covenant made in the agreement or instrument, or
failing to perform any other obligations undertaken in the agreement
or instrument; ... 7. Knowingly or intentionally engage in the act or
practice of refinancing a mortgage loan within 12 months following the
date the refinanced mortgage loan was originated, unless the
refinancing is in the borrower’s best interest...” (emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of
the above. The blanks referred to page nos. of the re-financed [subprime]
loans, and were never filled in thereafter and, in fact, they were struck
through as if it were not a re-finance, concealing the fact that CW was not
entitled to a prepayment penalty for an in-house refinance, in addition to the
fraud and deceit in recorded documentation with the Clerk’s Office, in
support of Hampton’s claim to a void ab initio DOT. Notable also is this
refinance was done within 11 months and was not in Hampton’s best
interest, since it was set to fail, as clearly it was “unaffordable.”;
2. The Note had separated from the mortgage through assignment of the
mortgage only and, thus, the mortgage loan was a nullity and no one had a right to
foreclose per“Carpenter v. Longan 16 Wall
the US. Supreme Court stated
former as essential, the latter
carries the mortgage with it,
nullity.’”;

271, 83 U.S. 271, 274, 21 L.Ed. 313 (1872),
‘The note and mortgage are inseparable/ the
as an incident. An assignment of the note
while assignment of the latter alone is a

Thus, the Assignment of the DOT from MERS to BANA failed to assign the same to
Fannie Mae - the holder of the Note - creating a separation of the two, making the
assignment a nullity. This assignment came six years after the DOT and three
years after BANA took over. BANA clearly misrepresented itself as owner of the
Note and Mortgage for purposes of foreclosure, which they attempted to do four
times in a six month period following execution of that assignment.

8

3. That PROF, through its purported attorney in fact, Fay Servicing, LLC
and its assigned Substitute Trustee, Samuel I. White, P.C., proceeded with a
Substitution of Trustee and foreclosure, where they had no rights to do so, were not
secured by the DOT, nor was an assignment of the DOT filed in the courts prior to
foreclosure to show they were secured thereby, and thus the foreclosure was invalid
as was the Unlawful Detainer cases and in violation of the Code of Virginia §5559(9):
“ The party secured by the deed of trust, or the holders of greater than fifty
percent of the monetary obligations secured thereby shall have the right and
power to appoint a substitute trustee or trustees ... The instrument of
appointment shall be recorded in the office of the clerk wherein the original
deed of trust is recorded prior to or at the time of recordation of any
instrument in which a power, right, authority or duty conferred by the
original deed oftrust is exercised” (emphasis added);
4. Where, further, the Trustee clearly violated his Oath to the Deed of Trust
acting as a biased fiduciary, and failed to comply with all conditions precedent to
foreclosure, such as notice requirements, HUD regulations and IFR Remediation
Guidelines through Consent Orders with the OCC/US Treasury! (See Petition for
Appeal, Appendix P, para. 31, bridging pages 15 - 18, re violations, etc.) and still
further
5. Trustee ignored the fact that there was a “cloud on title” on the property
that needed to be removed via “Corrective Affidavit,” prior to sale of the property, as
well as a dispute between the parties regarding any default under the security
instrument, and further where a judicial proceeding had been filed to challenge any
rights to foreclose prior to the foreclosure.

9

All of the above, and much more, being evident from Petitioner’s Petition for
Appeal to the Supreme Court of Virginia, herein Appendix P, pages 6 through 22,
which provided a preponderance of the evidence or could have at the Trial by Jury
which Petitioner was “denied.” Also, all the evidence has been preserved in the
record, which exceeds 2,000 pages.
Still further to para. 32, pages 18'19 of Appendix P, Petitioner quotes“32. Hampton’s Civil Cover Sheet and US District Court, Eastern
District of VA, December 4, 2015, No. L15CV1624, filed to stop the
foreclosure December 7, 2015, was presented at the Trustee Sale, but White
ignored. (H.E.25) (H.A.H)
As laid out in Hampton’s Request for Admissions, noted in #21, based
on the foregoing Exhs. A - H, PROF through White proceeded with
foreclosure, knowing all of the above, yet their responses deny any
“wrongdoing.”
It should be obvious to this court, as Hampton believes it would have
been to her jurists, White on behalf of Fay/PROF did not fulfill all
requirements precedent to foreclosure per the DOT, nor did they have a right
to proceed with the same.”
Still further to the above, on page 22 of Appendix P, Petitioner quotes.
“As laid out in Hampton’s Request for Admissions, noted in #22, based
on the foregoing Exhs. I - T, PROF through White proceeded with post­
foreclosure filings, knowing all of the above, yet their responses deny any
“wrongdoing.”
As can be seen from the List of Exhibits (through 48), there was much
more testimony and exhibits to be presented to the jury in support of the
effects of the “wrongdoings,” and to the costly, even duplicate, expense to
Hampton and to her welfare, her reputation and her physical, mental and
financial well being.”
Petitioner had been trying diligently to stay the Circuit Court’s judgment, as
well as find a new home, both to no avail. Specifically, Petitioner had not been able
to secure affordable housing (in the richest county in the U.S.), and has become
“homeless” during this ongoing Pandemic. Petitioner is also burdened with “two”
10

petitions herein, as well as accompanying large appendices (201 pages herein and
270 pages in companion case), and am a pro se litigant, who receives no help from
outside sources, burdened with heavy expenses, while living solely on social
security, and proceeding in forma pauperis, which is a direct result of respondent’s
negligence and wrongdoing and that of all prior parties who have purported to be a
party to her home and property - her “life and liberty.”
Being in suit in the courts for over five years, the same has involved a great
deal of time and stress, being pro se, and a great deal of expenses, while still
maintaining a decaying 42-year-old trailer-built dwelling and the property, which
Petitioner has been fighting for, on social security benefits only, which is why she is
pro se. Also, being an indigent should not deprive her of her Constitutional rights
and she would more than likely not be an indigent if she had not had the expenses
of representing herself before the courts and if Countrywide Home Loans, Inc. (CW),
Bank of America, N.A. (BANA) or Respondent PROF-2013-S3 Legal Title Trust
(PROF) had offered the HAMP modification mandated under the OCC FRB
Financial Remediation Framework - IFR by Consent Orders with the OCC/U.S.
Treasury and dating back to July 29, 2009; nor would there have been a suit before
this honorable court, or any other.
In summation, the respondent has “unlawfully taken” Petitioner’s home, and
the courts have allowed them to do so, in violation of her Constitutional Rights to
due process and the protections of the law, as well as to her rights to defend the
property from such “unlawful takings,” whereby she has also been deprived of her

11

Trial by Jury, where jurist “would have come to but one conclusion” contrary to that
of the courts, given the preponderance of the evidence.
PROF, their agents, trustees, and such, have all knowingly proceeded with
this “unlawful taking.” And, it is still a further crime that a stay was not granted
and thus the “unlawful taking” took place before this Supreme Court examines the
merits and makes its decision to allow “justice” to prevail. Petitioner knows that
based on the merits of her case, justice must prevail to uphold citizens’
Constitutional rights. Petitioner only prays that the Court grants her Petitions for
Writs of Certiorari and justice does prevail on those merits, to not only her benefit,
but to all U.S. citizens who are entitled to due process and protections of the law, as
laid out in our Constitution.
Since Petitioner’s Petition for Appeal before the Supreme Court of Virginia
and its record are so voluminous (far exceeding 2,000 pages), Petitioner is providing
in her Appendix, not only the Orders in the record, but also her filings at the
Supreme Court level, as well as those referenced in the lower case proceedings,
which were used to simplify a review of the Petition for Appeal (Appendix P). Also
provided in the Appendix are Petitioner’s further filings in the Supreme Court of
Virginia, on raising Constitutional Rights, includingAppendix N- Petition for Rehearing,
Quoting from page 7, “Hampton requested herein ... to find (in this court’s ‘de
novo’ review of the truths and merits) that Appellant was deprived of her
Constitutional Rights to a ‘fair’ trial by jury, where ‘reasonable minds would
have come to but one conclusion when viewing the evidence/ ... And still
further to address the Constitutionality of non-judicial foreclosures and

12

unlawful detainers and, more particularly, a citizen’s Constitutional rights to
defend one’s property from ‘unlawful takings’ without due process.”
Quoting also from page 9,
When a trustee buys at his own sale, a
constructive fraud exists/ the transaction is voidable! and when attacked, the
sale must be set aside.” ... “As Whitlow requires that the foreclosure sale be
set aside, the trial court had no legal basis for granting the summary
judgment.” [Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d
837, 840 (1974)]
Appendix O- Notes from Oral Argument, and
Quoting from page 4, “PROF does not address my statement of facts, but
claims them as previously litigated in my foreclosure challenge adversely
determined vs. me and claims those facts as allegations not germane to an
action for UD - where the ‘only material facts were PROF’s facially valid
title, the notice to vacate and Hampton’s continued unlawful possession of
the property.’ If this is all it takes to claim UD and take possession, clearly
the statutes governing the same are unconstitutional as they fail citizen’s
rights to defend their property from unlawful takings without due process
and the protections of the law.”
Appendix Q- Appellant’s Response to Motion to Dismiss Petition for Appeal.
Quoting from pages 4-5, “Hampton was denied her Trial by Jury and from the
ruling below, it also appears the Unlawful Detainer Statutes violate citizens’
Constitutional Rights to due process in defending their Property from
‘unlawful takings.”’
And, as detailed on page 3 of the Appendix’ Contents, Petitioner’s filings in the
Circuit Court, as particularly referenced in the Petition for Appeal, are included as:
Appendix R: Objections to the Final Order\
Quite nearly everything in the arguments to the Petition for Appeal
(Appendix P herein) was quoted from the Objections and therein cite where
each element was brought to attention in its quoted material from the
following MotionsAppendix S- Motion for Rehearing or in the Alternative Motion for a Mistrial
Supporting Memorandum ofLaw',
Appendix T* Motion for Rehearing or in the Alternative Motion for a Mistrial,
13

Appendix U- Motion for Reconsideration ofFurther Support to Memorandum
ofLaw)
Appendix V' Motion for Reconsideration and Supporting Memorandum of
Law) and
Appendix W‘ Hampton’s Motion to Dismiss“As was raised in the General District Court, in Parrish v. Federal National
Mortgage Association (292 Va. 44, 787 S.E.2d 116 (2016), the Supreme Court
of Virginia held that “where a borrower raises a bona fide question as to the
validity of title in a case originally filed in the General District Court (or
subsequently appealed to the Circuit Court from the General District Court),
the case must be dismissed without prejudice because the General District
Court lacks original subject matter jurisdiction to adjudicate the validity of
title.”
All of these circuit court filings have been referenced in quotes in the Petition
for Appeal, particularly to show where in the record they have been preserved.
CONSTITUTIONAL AND STATUTORY
PROVISIONS DETAILED
The reasons for granting the Petition fall on the federal constitutional
provisions that are involved in this petition and are found in the United States
Constitution (Petitioner’s bold emphasis added);
Amendment V:
“No person shall ... be deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for public use, without just
compensation.”
The U.S. National Archives, The Bill of Rights - Fifth Amendment - Rights of
Persons^
From page 1341;
“... the Court has been clear that it may and will independently review the
facts when the factfinding has such a substantial effect on constitutional
rights. [Fn. 360] ‘In cases in which there is a claim of denial of rights under
the Federal Constitution this Court is not bound by the conclusions of lower
14

courts, but will re-examine the evidentiary basis on which those conclusions
are founded.’ Niemotko v. Maryland, 340 U.S. 268, 271 (1951); Time, Inc. v.
Pape, 402 U.S. 279, 284 (1971), and cases cited therein.”
Hampton believes that had she not been denied her three-day trial by jury,
she would have prevailed on the merits, with a preponderance of evidence.
From page 1346:
“It may prevent confusion, and relieve from repetition, if we point out that
some of our cases arose under the provisions of the Fifth and others under
those of the Fourteenth Amendment to the Constitution of the United States.
... it may be that questions may arise in which different constructions and
applications of their provisions may be proper. ... The most obvious difference
between the two due process clauses is that the Fifth Amendment clause as it
binds the Federal Government coexists with a number of other express
provisions in the Bill of Rights guaranteeing fair procedure and non-arbitrary
action, such as jury trials, grand jury indictments, and nonexcessive bail and
fines, as well as just compensation, whereas the Fourteenth Amendment
clause as it binds the States has been held to contain implicitly not only the
standards of fairness and justness found within the Fifth Amendment’s
clause but also to contain many guarantees that are expressly set out in the
Bill of Rights. In that sense, the two clauses are not the same thing, but
insofar as they do impose such implicit requirements of fair trials, fair
hearings, and the like, which exist separately from, though they are informed
with, express constitutional guarantees, the interpretation of the two clauses
is substantially if not wholly the same. ... Finally, it should be noted that
some Fourteenth Amendment interpretations have been carried back to
broaden interpretations of the Fifth Amendment’s due process clause, such
as, e.g., the development of equal protection standards as an aspect of Fifth
Amendment due process.”
From page 1348'
"... in observing the due process guarantee, it was concluded the Court must
look ‘not [to] particular forms of procedures, but [to] the very substance of
individual rights to life, liberty, and property.’ ... The phrase ‘due process of
law’ does not necessarily imply a proceeding in a court or a plenary suit and
trial by jury in every case where personal or property rights are involved. ...
What is unfair in one situation may be fair in another. ... The precise nature
of the interest that has been adversely affected, the manner in which this
was done, the reasons for doing it, the available alternatives to the procedure
that was followed, the protection implicit in the office of the functionary
15

whose conduct is challenged, the balance of hurt complained of and good
accomplished — these are some of the considerations that must enter into the
judicial judgment.”
Looking to the very substance of Hampton’s rights to life, liberty, and
property, as evidenced in the facts, it should be obvious that unfair judgments have
so adversely affected her life by the loss of her home and property, thus rendering
her “homeless” and by those with “dirty hands” for failure of all parties to abide by
the precedents conditioned in the DOT, and in further failing to offer up the
mandated HAMP modification, she was approved for in July, 2009, where BANA
required her to go bankrupt to qualify for the HAMP; which in turn destroyed her
excellent credit. Hampton, just as in Wigod \ Wigod v. Wells Fargo Bank, 673 F.3d
54 (7th Cir. 2012)], has been waiting over ten years for her HAMP modification,
retro to July 29, 2009, as mandated by the Independent Foreclosure Review
Remediation Framework and ‘Consent Orders’ with both US Bank on behalf of its
Trusts, as well as BANA, and instead of complying with those mandated remedies,
PROF, and its agents or assigns, proceeded with foreclosure in violation of the
precedents to the governing DOT and where foreclosure was not permitted by
PROF, an unsecured purported note holder, who exercised the right to foreclose, but
. had no power to do so.
This court should find that PROF and all its associated agents, attorneys and
trustees, as well as prior holders and/or assigns, and, accordingly, prior courts have
violated the US Constitution by taking this citizen’s property in a “non-judicial
foreclosure” without due process and “fairness” in any proceedings. In over five

16

years of litigation, Petitioner has never been extended “due process” in violation of
the Fifth and Eleventh Amendments, as due process is defined by this court.
From page 1356“Substantive Due Process
Justice Harlan, dissenting in Poe v. Ullman, [Fn. 65^ 367 U.S. 497, 540, 541
(1961). The internal quotation is from Hurtado v. California, 110 U.S. 516,
532 (1884). Development of substantive due process is noted, supra, pp. 1343*
47 and is treated infra, under the Fourteenth Amendment.] observed that one
view of due process, ‘ably and insistently argued ..., sought to limit the
provision to a guarantee of procedural fairness.’ But, he continued, due
process ‘in the consistent view of this Court has ever been a broader concept
.... Were due process merely a procedural safeguard it would fail to reach
those situations where the deprivation of life, liberty or property was
accomplished by legislation which by operating in the future could, given
even the fairest possible procedure in application to individuals, nevertheless
destroy the enjoyment of all three. ... Thus the guaranties of due process,
though having their roots in Magna Carta’s 'per legem terraS and considered
as procedural safeguards ‘against executive usurpation and tyranny,’ have in
this country ‘become bulwarks also against arbitrary legislation.’”
The courts have contributed to Hampton’s deprivation of life, liberty or
property and any state laws allowing this deprivation must be examined under the
Constitution of the United States.
From page 1357*1359“The Fifth Amendment, which is applicable in the District of Columbia, does
not contain an equal protection clause as does the Fourteenth Amendment
which applies only to the states. But the concepts of equal protection and due
process, both stemming from our American ideal of fairness, are not mutually
exclusive. The ‘equal protection of the laws’ is a more explicit safeguard of
prohibited unfairness than ‘due process of law/ and, therefore, we do not
imply that the two are always interchangeable phrases. But, as this Court
has recognized, discrimination may be so unjustifiable as to be violative of
due process.

17

Although Hampton has not made a case for discrimination, there have been
several occasions in the courts when she has felt discriminated against due to being
a pro se litigant, where the truths or evidence have been ignored.
"... Although the Court has not assumed to define ‘liberty’ with any great
precision, that term is not confined to mere freedom from bodily restraint.
Liberty under law extends to the full range of conduct which the individual is
free to pursue, and it cannot be restricted except for a proper governmental
objective. Segregation in public education is not reasonably related to any
proper governmental objective and thus it imposes on Negro children of the
District of Columbia a burden that constitutes an arbitrary deprivation of
their liberty in violation of the Due Process Clause.
‘Equal protection analysis in the Fifth Amendment area,’ the Court has said,
‘is the same as that under the Fourteenth Amendment.’ ... However, almost
all legislation involves some degree of classification among particular
categories of persons, things, or events, and, just as the equal protection
clause itself does not outlaw ‘reasonable’ classifications, neither is the due
process clause any more intolerant of the great variety of social and economic
legislation typically containing what must be arbitrary line-drawing. ... for
example, the Court has sustained a law imposing greater punishment for an
offense involving rights of property of the United States than for a like
offense involving the rights of property of a private person. ...
The federal sovereign, like the States, must govern impartially. ... [B]ut ...
there may be overriding national interests which justify selective federal
legislation....”
It is with this section that Hampton believes that there is “national interests”
that the doctrine of non*judicial foreclosures should be uniform and nationwide, or
banned as unconstitutional. Why not require one to prove that one has a right to
foreclose before exercising the right of it. This is what Hampton has experienced in
her case, whereby she has lost her very home and property of 25 years to the dirty
hands of those who had no right to foreclose. This is also why Hampton feels that
non-judicial foreclosures should be barred as unconstitutional!

18

Amendment VII ‘
“In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.”
Still further to Jury Trials, Petitioner’s Appendix N, Petition for Rehearing in
the Virginia Supreme Court, stated as follows“Hampton is hopeful with ‘new eyes’ that one will recognize the problems
with this Court’s initial Decision, and understand how she was both ‘shocked
and dismayed’ by that Decision. For to render such, in her opinion,
particularly in a de novo review, is to deny her - a natural born citizen of this
Commonwealth and the U.S. - due process and protections under the law as
laid out in the Virginia and U.S. Constitution and Virginia’s Bill of Rights.”
Further, under the Bill of Rights, Section 11.
Due process of law; obligation of contracts; taking of private property;
prohibited discrimination; jury trial in civil cases: “That no person shall be
deprived of his life, liberty, or property without due process of law; that the
General Assembly shall not pass any law impairing the obligation of
contracts, nor any law whereby private property shall be taken ... That in
controversies respecting property, and in suits between man and man, trial
by jury is preferable to any other, and ought to be held sacred.”
This Court has determined that the loss of an individual’s home constitutes a
final, lasting deprivation of property entitling him/her to the protection of the due
process clause. Cleveland Board of Education v. Loudermill, 470 U.S. 532, 538-541
(1985) (“The point is straightforward- the Due Process Clause provides that certain
substantive rights - life, liberty, and property - cannot be deprived except pursuant
to constitutionally adequate procedures”).

19

Factors roughly in order of priority that have been considered to be elements
of a fair hearing' (l) an unbiased tribunal; (2) notice of the proposed action and the
grounds asserted for it; (3) an opportunity to present reasons why the proposed
action should not have been taken; (4), (5) and (6) the right to call witnesses, to
know the evidence against one and to have decision based only on the evidence
presented; (7) counsel; (8) and (9) the making of a record and a statement of
reasons; (10) public attendance; and (ll) judicial review. Friendly, “Some Kind of
Hearing,” 123 U.Pa.L.Rev. 1267, 1279*95 (1975). [Petitioner’s Emphasis Added]
Petitioner, with this wrongful foreclosure and eviction, has been permanently
deprived of her ownership, possession, and use of the property, which she used as
her primary residence for over 25 years; this clouds the title to the property even
further than it already was with the need for a “Corrective Affidavit”; further
impairs her ability to sell, rent, or otherwise alienate the property; taints her credit
rating; reduces the chance of her obtaining a future loan or mortgage; has subjected
her to eviction and homelessness; and jeopardizes her security in a dwelling place.
And where with compliance of the mandated remedies to the IFR Remediation
Framework, Hampton could have profited years ago and has received no
compensation where she has spent hundreds of thousands of dollars invested in the
property, which she has been deprived of by the dirty hands of those who have no
right to do so.
In addition to the loss of property, adverse judgments as well as bankruptcies
are lasting marks on one’s integrity, honor and character. For where a person’s good

20

name, reputation, honor or integrity is at stake, due to the taking of the property,
should surely be held as unconstitutional and should have been found void as well
as to the foreclosure itself, and particularly with the evidence that supports the
facts that all Deeds and Assignments on the property should be held void, including
the DOT as void ab initio.
Still further, in addressing the question of Petitioner’s right to a jury trial
and due process, the court scheduled the Trial by Jury, which Petitioner was
entitled to, and had the trial NOT been cancelled by the bench Orders on Summary
Judgment and Demurrer, surely due process and justice would have prevailed
where jurist would have found the foreclosure, as well as all recorded Deeds on file,
to be void as a matter of law.
Petitioner tried to obtain a further Stay in the Circuit Court, as well as two
attempts here in this Court (in addition to a request for a further extension of time),
given Hampton’s “homeless” situation and her need to prepare two Petitions
together with “two” large Appendices. This court denied those petitions to stay
since the court could not act until the relief sought was first sought by those lower
courts. Prior to Petitioner’s Applications herein, she sought a stay in the circuit
court as Hampton’s Emergency Motion to Stay, but the same was not deemed an
“emergency,” due to, I believe, the fact that the judge could not act on anything until
the mandates were back from the Supreme Court of Virginia. But by the time a,
hearing was set, July 13, 2021, upon rejection of a further stay, the eviction took
place the following day on July 14, 2021, rendering Petitioner as “homeless.”

21

Accordingly,

even

the

procedural process

for

obtaining the

same

seems

“unconstitutional” especially where the courts have permitted this “unlawful
taking,” prior to any real judgment on merits.
Hampton’s partial Notes from the above July 13, 2021, hearing read as
follows“Further, according to Supreme Court Rule 23.4 “A judge, court, or Justice
granting an application for a stay pending review by this Court [SCOTUS]
may condition the stay on the filing of a supersedeas bond having an
approved surety or sureties. The bond will be conditioned on the satisfaction
of the judgment in full, together with any costs, interest, and damages for
delay that may be awarded. If a part of the judgment sought to be reviewed
has already been satisfied, or is otherwise secured, the bond may be
conditioned on the satisfaction of the part of the judgment not otherwise
secured or satisfied, together with costs, interest, and damages.” Here again,
Hampton will be filing “In Forma Pauperis.”
In summation, PROF is “unlawfully taking” my home, and this court is
allowing them to do so, in violation of my Constitutional Rights to due
process and the protections of the law, as well as my right to defend
my .property from such “unlawful takings.” It would be a further crime to
allow PROF to “unlawfully take” my property before SCOTUS examines the
merits and makes its decision and “justice” prevails. Petitioner knows that
based on the merits of her case, justice must prevail to uphold citizens’
Constitutional rights.
If this court will no longer permit a further stay until SCOTUS makes
its decisions, I sincerely hope that this court will allow a stay of the eviction
and notice to vacate thru the end of the month per the CDC Guidelines or
thru Justice Lemons’ Judicial Emergency August 11, 2021, thus giving me
time to apply again to SCOTUS to Stay this Eviction - and in the interest of
“justice” - and giving SCOTUS time to respond to the same before turning
possession over to these Unlawful Takers.
The Notice to Vacate is set for tomorrow at 10-00 am and I only pray
that this court’s decision does not put me in a homeless position depriving me
further of making my timely appeals to SCOTUS, where some justice might
be finally found!”
The Judge first expressed that he found no authority to stay the proceedings before
SCOTUS under the Supreme Court Rule 23.3 or under any rule within Virginia’s

22

jurisdiction and, thus, denied my Motion to Stay. The judge did express empathy, as
he likened my case to that of where he has had to separate children from their
possibly abusive parents. That was not a good comparison or likeness, as that might
be good for the children and would certainly fall within their own “protections of the
law,” but here Petitioner has not been afforded the “protections of the law,”
preventing this “unlawful taking.” Obviously, the courts have not considered the
facts or evidence and have only relied on the deceits in the pleadings from opposing
counsel, who would do anything to prevent the truths of the allegations to be
revealed. In Petitioner’s opinion that is “UNconstitutional”!
Amendment XIV, Section 1“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States? nor shall any State
deprive any person of life, liberty, or property, without the due process of law!
nor deny to any person within its jurisdiction the equal protection of the
laws.”
It is a fundamental principle that one has the right to protect his or her
property from its “unlawful taking” by another. Consistent with the United States
Constitution, the Virginia Constitution, Article I, §1 states:
“[A]ll men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity? namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.”
And Article I, §11 further states:
“... no person shall be deprived of his life, liberty, or property without due
process of law. ... That in controversies respecting property, and in suits
23

between man and man, trial by jury is preferable to any other, and ought to
be held sacred.”
Failure of due process began with the non-judicial foreclosure and despite all
facial and material defects to the Deed of Assignment (from BANA to PROF), filed
post foreclosure, and the Deed of Foreclosure itself, the court has permitted these
violations to occur by its clearly erroneous finding and/or abuse of discretion for
failing to weigh the evidence from both sides. This can be clearly seen in the
evidence provided in this case, where the courts have either ignored, overlooked or
misinterpreted the same.
Still further on Due Process (Petitioner’s bold emphasis added):
“As taken from William & Mary Bill of Rights Journal [Val. 22:1221 2014] pp. 1245*
1246, Julie A. Cook, J.D. Candidate, 2014, William & Mary School of Law; B.H.,
2011 magna cum laude, Clemson University. “Consider the following:
In light of the recent decision announced by the Supreme Court of the United
States in Ashcroft v. Iqbal, the pleading standard established under Federal
Rule of Civil Procedure 8(a)(2) requires that, in order to survive a motion to
dismiss, a complaint must contain sufficient factual matter to ‘state a claim
to relief that is plausible on its face.’ With respect to pro se plaintiffs, Federal
Rule of Civil Procedure 8(a)(2) is unconstitutional because it violates an
individual’s procedural due process rights by requiring a pleading standard
that a layperson finds difficult to satisfy. ...
The argument presented in this Note is analogous to the deprivation of
pro se litigants’ right to due process. Just as pro se litigants lack the
information and expertise necessary to pass muster under the standard of
Rule 8, resulting in the premature dismissal of their claims, plaintiffs
asserting negligent misrepresentation claims may not have the tools
necessary to satisfy heightened pleading. The lack of uniformity in courts in
applying a pleading standard, as demonstrated by the current federal circuit
court split, prevents plaintiffs from receiving adequate notice of what is
sufficient to avoid dismissal. Courts conflation of the elements of negligent
misrepresentation with fraud also contributes to the dismissal of claims that
might otherwise have merit. Finally, the inconspicuous elements of negligent
misrepresentation, when paired with the requirements of heightened
24

pleading, present an undue burden on plaintiffs who, at the outset of a claim,
are unable to utilize the tools of discovery. ... a material injury constituting a
deprivation of plaintiffs rights to procedural due process.”
“The purpose of a Rule 12(b)(6) motion is to test the sufficiency of a
complaint,” not to “resolve contests surrounding the facts, the merits of a
claim, or the applicability of defenses.” Edwards v. City of Goldsboro, 178
F.3d 231, 243-44 (4th Cir. 1999). ... A claim is plausible if the complaint
contains “factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged,” and if there
is “more than a sheer possibility that a defendant has acted unlawfully.”
Ashcroft v. Iqbal, 129 S.Ct. 1937, 1949 (2009). The Court restated the
substance and application of the Bell v. Twombly test for the sufficiency of
pleadings' “Determining whether a complaint states a plausible claim for
relief will, as the Court of Appeals observed, be a context-specific task that
requires the reviewing court to draw on its judicial experience and common
sense.”
The refusal of the Trial Examiner to receive and consider competent and
material evidence which could have been offered after a reasonable
opportunity to meet the charges amounts to denial of due process, and the
fact that the Board had reached, or might have reached, no different
conclusion had the rejected evidence been received is entirely beside the
point. N.L.R.B. v. Burns, 8 Cir., 1953, 207 F.2d 434.
Clearly, Petitioner herein has been denied due process by not only the Circuit
Court, but also by the Supreme Court of Virginia, whose Opinion stated “there is no
reversible error in the judgment complained of.”
From The Making of Modern Law■ US. Supreme Court Records and Briefs,
1832-1978, containing the world’s most comprehensive collection of records and
briefs brought before the nation’s highest court by leading legal practitioners many who later became judges and associates of the court, Hampton wishes to draw
particular attention to portions of the following Jurisdictional Statement.

25

In the matter of Flora Daun Fowler, Appellant v. Maryland State Board of
Law Examiners, No. 77*801, 434 U.S. 1043, 98 S.Ct. 844, 54 L.Ed2d 793 (1977)
quoting from her Jurisdictional Statement“The federal constitutional provisions involved in this appeal are found
in the United States Constitution, Amendment XIV, Section 1‘All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or
property, without the due process of law! nor deny to any person within
its jurisdiction the equal protection of the laws.’
Where federal action is concerned- ‘The right to hold specific private
employment and to follow a chosen profession free from unreasonable
governmental interference comes with the “liberty” and “property” concepts of
the provisions of the Fifth Amendment to the Federal Constitution that no
person shall be denied liberty or property within due process of law. Green v.
McElroy, 360 U.S. 474, 79 S.Ct. 1400’
The Fourteenth Amendment protects liberty or property from state action
lacking due process provisions.
The nature of notice and hearing was elaborated upon in the case of Hornsby
v. Allen, 326 F.2d 605.
‘Due process in administrative proceedings of a judicial nature
generally requires conformance to fair practices of Anglo* Saxon
jurisprudence, and this is equally equated with adequate notice and
fair hearing - requirements that parties be allowed opportunity to
know opposing parties’ claims, to present evidence to support their
contentions, and to cross-examine opposing parties’ witnesses, but
strict adherence to common law rules of evidence at hearing is not
required.’
The Fourteenth Amendment demands that a state treat all citizens alike,
unless there is a sufficient reason to treat them differently. The concept of
equal protection has been traditionally viewed as requiring uniform
treatment of persons standing in the same relation to the action of

26

government. The Equal Protection Clause requires that state laws be applied
uniformly to situations which cannot be reasonably distinguished.
For the reasons set forth in this Jurisdictional Statement, the questions
presented herein being substantial and of public importance, should be heard
and decided on this appeal.”
Further to Hornsby v. Allen'
“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.” (emphasis added)
The integrity of the rule of law is at stake, as the most basic of our due
process rights are involved.
It is a fundamental principle that one has the right to protect his or her
property from its unlawful taking by another. Consistent with the United States
Constitution, the Virginia Constitution states[A]ll men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity; namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.
Va. Const., Article I, §1. It further states that “no person shall be deprived of his
life, liberty, or property without due process of law.” Va. Const., Article I, §11.
The federal government, the states, and the courts of all levels, are tasked
with the daunting task of protecting the property rights of citizens from theft,
conversion, fraud, and otherwise “unlawful takings.” One’s property rights can be
protected through criminal proceedings, through civil proceedings, and sometimes
both. This is a civil action appeal filed to defend and protect Hampton’s property
rights from the unlawful taking ofthose rights by PROF.
27

AUTHORITIES AND ARGUMENTS
Restating from Hampton’s Objections to the Final Order on Summary
Judgment (see Appendix R)'
“Thus, it appears to Hampton that the Circuit Court is stating here
that on appeal from the General District Court on an unlawful detainer, this
court can only rule on an unlawful detainer based on the unlawful detainer
statute, that being the same as in the General District Court. If this is the
case, what would be the purpose of an appeal to the Circuit Court, if it was
limited to what the General District Court can rule on? And why would a
Trial by Jury be granted on a de novo appeal, if you cannot consider anything
more than the unlawful detainer statute? Hampton was lead to believe that
by appealing an Unlawful Detainer suit from a General District Court, which
is not a court of record, she would be entitled to a de novo trial of record, and
her Constitutional Right to a Trial by Jury, where the jury would determine
the outcome and not the bench.
Still further to the above, Petitioner’s Petition for Appeal (Appendix P) page
23, quotes her Authorities and Arguments, as follows:
“The standard of review on a summary judgment is de novo.
Under Rule 3-20. Motion for Summary Judgment
“If it appears from the pleadings, the orders, if any, made at pretrial
conference, the admissions, if any, in the proceedings, that the moving party
is entitled to judgment, the court shall grant the motion. ... Summary
judgment shall not be entered if any material fact is genuinely in dispute.”
This is further supported by“Where there is conflicting evidence, the court must credit the evidence
of both sides and acknowledge that there is a genuine issue of material fact
that cannot be resolved by summary judgment.” See Tolan v. Cotton, 134
S.Ct. 1861, 1866 (2014) (stating that summary judgment is inappropriate
where each side has put forward competent evidence that raises a dispute
about a material fact). [Petitioner’s added emphasis]
One only needs to review the facts to find clear and genuine facts in
dispute and as “submitted” in Hampton’s Admissions (from both sides) with
28

her Exhibits. Hampton also filed Reconsideration motions, and then Motions
for Rehearing or in the Alternative Motions for a Mistrial and Supporting
Memorandum of Law, to “complete and preserve” the record, before Final
Orders issued, and to give the court the opportunity to make an informed
ruling on the issues to prevent needless appeals and in hopes of “justice”
resulting in a trial by jury, not by the bench.”
Still further from Appendix P herein, Hampton’s arguments, beginning pages
28 through 32, as quoted therein follows“Hampton continues with her arguments preserved in her Objections
to the Final Order on Summary Judgment with the followingIn light of all of the above, and as supported by Hampton’s Motions for
Reconsideration, Supporting Memorandum ofLaw and, still further, Motions
for Rehearing ... Mistrial and more particularly, as spelled out to the court
(as Hampton would have to a jury) in her Motions for Rehearing... Mistrial
Supporting Memorandum of Law, all the violations listed therein, Hampton
submits her arguments and objections to the Final Order and/or rulings in
this case.
Hampton sincerely believes that the Supreme Court of Virginia on
Appeal could find that not only does Parrish apply to this particular case, but
as its opinion therein stated“a plaintiff in the second class of cases, who claims a right of possession
acquired after the defendant’s original, lawful entry, must show the validity
of that right. When the plaintiffs after-acquired right of possession is based
on a claim of title, the plaintiff may be required to establish the validity of
that title. Corbett v. Nutt. 59 Va. (18 Gratt.) 624, 648 (1868). [Where the
right of possession depends solely upon a claim of title, the question of
whether that title is valid is a threshold question in an unlawful detainer
action. While a court’s resolution of that question in an unlawful detainer
action may not, by statute, be preclusive in actions for ejectment or to quiet
title, the court trying the unlawful detainer action nevertheless must weigh
the parties’ competing arguments about validity to determine whether a
plaintiffs prima facie right of possession evidenced by a trustee’s deed has
been rebutted by the defendant.] Actions for unlawful detainer in the
foreclosure context generally fall into this category. [... In the specific context
of a foreclosure, the foreclosure purchaser plaintiff comes to court claiming a
right of possession based on a claim of legal title, itself based on the trustee’s
deed by which the trustee has ostensibly conveyed to the foreclosure
purchaser the legal title conveyed in the deed of trust to the trustee by the
defending homeowner. Meanwhile, the defending homeowner has possession,
29

which the foreclosure purchaser plaintiff seeks to oust. The question of which
of the two parties is entitled to possession is inextricably intertwined with
the validity of the foreclosure purchaser’s title.”]
Here in Hampton’s Supporting Memorandum of Law, she has spelled out
what she would have to a panel of jurists, as well as the court, the violations
to the DOT incorporated as a condition precedent to foreclosure and the
regulations that barred that foreclosure. Further, as found in Parrish'“We may further infer from their allegations that the foreclosure purchaser,
Fannie Mae, was aware of the alleged violation of the deed of trust because it
was the lender that allegedly committed the violation. We conclude that these
allegations are sufficient that, if proved, they could satisfy a court of equity to
set aside the foreclosure.
We therefore hold that the Parrishes raised a bona fide question of title in the
unlawful detainer proceeding, thereby divesting the general district court of
subject matter jurisdiction. Accordingly, the general district court lacked
subject matter jurisdiction to try the unlawful detainer before it. The circuit
court likewise lacked subject matter jurisdiction while exercising its de novo
appellate jurisdiction, because its subject matter jurisdiction was derived
from and limited to the subject matter jurisdiction of the court from which
the appeal was taken. Its authority therefore was limited to dismissing the
proceeding without prejudice, thereby enabling the foreclosure purchaser to
pursue its choice of available remedies in the circuit court under that court’s
original jurisdiction.” (bold emphasis added)
Hampton did not believe that she had to spell out ALL the violations to the
DOT and regulations/statutes precedent to foreclosure and, where argued
previously in her Motion to Dismiss, she did specify the violations to the DOT
itself which should have been found as void ab initio. Further she pointed out
that the subsequent Assignment of the DOT was a nullity as found in“Carpenter v. Longan 16 Wall. 271, 83 US. 271,274, 21 L.Ed. 313 (1872), the
US. Supreme Court stated “The note and mortgage are inseparable/ the
former as essential, the latter as an incident. An assignment of the note
carries the mortgage with it, while assignment of the latter alone is a
nullity.”
Thus, Hampton’s claim to no one having a right to foreclose. Also at oral
argument, Hampton stated further- “This should be sufficient evidence, all
previously submitted and pled, but NEVER previously “actually” tried, but if
not I have more that I could present.” [tr. 10-4-19, p.6,11.16*18, added] It was

30

believed, in light of Parrish, Hampton had raised a bona fide dispute of title,
including its validity.
The Parrishes alleged that the foreclosure was invalid due to violations
of 12 CFR § 1024.41(g) - HAMP modification submittal 37 days before
foreclosure - just one of the violations listed in Hampton’s Supporting
Memorandum of Law. But as can be seen in all the pleadings, Hampton
sought to invalidate the Trustee’s Deed, the Assignment of the DOT to PROF,
the Substitution of Trustee from Fay/PROF to SIW, the 1st Assignment of the
DOT from MERS to BANA, and the DOT itself ... and of course to set aside
the wrongful foreclosure and prove to this court that no one had the right to
possession or the right to the remedy to foreclose.
Further to Parrish, Justice Powell concurring in part and dissenting in part“As the majority’s ruling is unsupported by this Court’s jurisprudence, leads
to an unnecessary expansion of the concept of trying title and impedes the
ability of home owners to protect the possession of their homes, I must
respectfully dissent.”
“Moreover, I am particularly concerned with what appears to be an
imbalance in the majority’s approach. Under the majority’s approach, a
plaintiffs allegation of a valid trustee’s deed is sufficient to conclusively
establish its right of possession. However, a defendant cannot merely present
evidence to rebut the validity or bona fides of that deed in general district
court. Rather, ... a defendant must do significantly more than just deny the
validity of the trustee’s deed. A defendant must assert a bona fide question of
title ‘sufficient to survive a demurrer had the defendant filed a complaint in
circuit court seeking [to set aside foreclosure.]’ In other words, a defendant
must plead sufficient facts to meet a different standard for a different cause
of action that can only be raised in a different court. [Further demonstrating
the seeming imbalance of the majority’s approach, the majority seeks to
foreclose any collateral attacks on previous unlawful detainer actions where
defendants raised a question concerning title. In holding that these decisions
are merely voidable, the majority presumes that the general district court’s
decision was based on a finding that the defendant had not raised a bona fide
question of title. Rarely will we have any way of knowing the basis for the
general district court’s ruling. Indeed, it is not beyond the realm of possibility
that the defendant raised a bona fide question of title but lost because the
general district court made a ruling on the merits, notwithstanding the fact
that it had no jurisdiction to do so. The only way to determine the basis for
the general district court’s ruling is to reopen the case and allow a collateral
attack.] Even by successfully raising the requisite bona fide question of title,
the defendant cannot have the matter resolved in general district court.
Instead, the defendant can only cause the matter to be removed from the
general district court to be heard in the circuit court. ... If a defendant has
31

raised sufficient allegations to allow a general district court to rule in that
defendant’s favor, that court loses jurisdiction over the matter, but if the
defendant fails to raise sufficient allegations, the court retains jurisdiction.
Stated differently, the majority has crafted an approach that prevents a
general district court from ruling on the merits in favor of a defendant.
Thus it is clear to me that the general district court had subject matter
jurisdiction to hear the present case regardless of the defense raised by the
Parrishes. As a result, I would also find that the circuit court properly
exercised its derivative jurisdiction. Therefore, it is necessary to address the
circuit court’s decision to grant Fannie Mae summary judgment. In my
opinion, the circuit court erred in granting summary judgment. Notably, by
raising a bona fide question of title, the Parrishes have presented a disputed
issue of material fact. Furthermore, our case law establishes that Fannie Mae
was not entitled to judgment as a matter of law on this issue. Indeed, under
the court’s jurisprudence, the exact opposite is true.”
“The general rule concerning the position of a trustee under a deed of
trust is that the trustee is a fiduciary for both debtor and creditor and
must act impartially between them. Implicit in this rule is the
proposition that a trustee must refrain from placing himself in a
position where his personal interest conflicts with the interests of
those for whom he acts as fiduciary.”
“Generally, a trustee cannot be both a seller and a buyer at his own
auction sale, because the two roles are incompatible. When a trustee
buys at his own sale, a constructive fraud exists/ the transaction is
voidable/ and when attacked, the sale must be set aside. In such a
situation, the adequacy of consideration, fairness of the sale, and good
motive of the trustee in purchasing are not controlling. A prime reason
for making such a sale voidable is the necessity of upholding the
fiduciary relationship between the trustee and those for whom he acts.
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d 837, 840
(1974) (citations omitted) (emphasis added).
In the present case, Atlantic Law Group, LLC CALG’), the trustee, was also
the agent of the purchaser, Fannie Mae. Notably, ALG was not only the
trustee, but it also represented Fannie Mae in the general district court and
circuit court throughout the underlying litigation. Thus, the record clearly
demonstrates that Fannie Mae was both the buyer and, through its agent,
seller at the foreclosure auction. As Whitlow requires that the foreclosure
sale be set aside, the trial court had no legal basis for granting the summary
judgment.”
32

Here, in Hampton’s case, we have an identical situation, where the record
clearly demonstrates that PROF (or the investor Fannie Mae) was both the
buyer and, through its agent SIW, seller at the foreclosure auction and thus
requires the foreclosure sale be set aside, and the trial court had no legal
basis for granting the summary judgment.”
And as further argued in my Petition,
“Since Hampton, as a pro se litigant, has found no case in the Virginia
courts that has all the torts that Hampton’s case carries, she wishes to draw
this court’s attention to a case with several of those torts quite matching in
nature - that is, from the Supreme Court of Montana, in Jacobson v Bayview
Loan Servicing & Charles J. Peterson, Trustee, 371 P.3d 397, 383 Mont. 257
(2016), where their County court recognized the violations to Fair Debt
Collection Practices Act and the Supreme Court found that“Bayview repeatedly violated the FDCPA ... violated the contractual
requirements of the Trust Indenture ... and Bayview’s unfair and deceptive
practices against the Jacobsons cannot be tolerated as they are clear
violations of the FDCPA. ...”
As to damages, in that case“... Specifically the district court awarded ... actual damages and ...
additional damages ‘for emotional distress suffered by the Jacobsons together
with the deception, stonewalling, and utter disregard for their contractual
and statutory rights that the Jacobsons have been forced to endure as a
result of [Bayview’s] conduct. ... and still further awarded money damages,
emotional distress damages, statutory damages, and additional damages for
Bayview’s post-trial actions.” ... “We find further support for this conclusion
in Wigod v. Wells Fargo Bank, 673 F.3d 54 (7* Cir. 2012). The U.S. 7th
Circuit Court of Appeals determined that Wigod alleged recoverable
pecuniary loss ... as a result of unfair HAMP procedures by Wells Fargo.
Wigod, 673 F3d at 575. The Court found Wigod’s allegations that “she
incurred costs and fees, lost other opportunities to save her home, suffered a
negative impact to her credit, never received a Modification Agreement, and
lost her ability to receive incentive payments during the 1st five yrs of the
modification” were sufficient to establish pecuniary loss. Wigod, 673 F3d at
575. ... and accordingly, we conclude that the damages suffered by the
Jacobsons are a financial detriment and the losses are properly considered
actual damages by the district court.” ...
And where in Hampton’s case, all parties “clearly both violated those FDCPA
statutes laid out in Hampton’s Supporting Memorandum of Law. Also,
33

Hampton, under Wigod, has been waiting over ten years for her HAMP
Modification, retro to July 29, 2009, as mandated by the Independent
Foreclosure Review Remediation Framework and ‘Consent Orders’ with both
US Bank on behalf of its Trusts, as well as BANA.”
“Due process in an administrative hearing includes a fair trial, conducted in
accordance with the fundamental principles of fair play and applicable
procedural standards established by law. Administrative convenience or
necessity cannot override this requirement.” Swift and Co. v. United States,
7 Cir., 1962, 308 F.2d 849; Hornsby v. Allen, 5 Cir., 1964, 326 F.2d 605.”
REASONS FOR GRANTING THE PETITION
Hampton has been fighting for justice not only for herself, but for all the
citizens of the U.S., as she has felt this “her path” for over a decade. And despite all
the disappointments, of denial to be heard and tried by a jury and afforded due
process, as Constitutional rights, she continues, but worries for the future.
Because the Supreme Court of Virginia has failed to find error in the Circuit
Court’s rulings, it appears that the unlawful detainer (UD) statutes violate citizens
Constitutional rights and particularly in a non-judicial foreclosure setting.
Hampton had requested that the lower court’s judgment be determined as
erred in granting summary judgment, and to find (in that court’s “de novo” review of
the truths and merits) that Appellant was deprived of her Constitutional Rights to a
“fair” trial by jury, where “reasonable minds would have come to but one conclusion
when viewing the evidence,” ... And still further to address the Constitutionality of
non-judicial foreclosures and unlawful detainers and, more particularly, a citizen’s
Constitutional rights to defend one’s property from “unlawful takings” and without
due process.
34

I

As quoted in Hampton’s prior Petition to SCOTUS, and again herein, quoting
Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964):
“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.”
PROF has never produced any evidence that they had a right to possession,
and never presented the Note, believed to be forged, and was not entitled to
summary judgment, where both the Assignment of the DOT to PROF (post
foreclosure) and the Deed of Foreclosure (DOF) had facial and material defects.
And, as a matter of law, PROF was not entitled to the remedy of foreclosure, where
its purported Note was not secured by the DOT, and the governing DOT should
have been found as void ab initio.
PROF’s Trustee knew they breached the DOT and noted violations (as
evident in Hampton’s Petition spanning six quoted pages), which alone should be
found as a reversible error, and knew they had violated their oaths as fiduciary to
the DOT, acting only as a biased fiduciary, and further, had to have known that the
foreclosure should be set aside. And where Hampton argued*
"... When a trustee buys at his own sale, a constructive fraud exists/ the
transaction is voidable/ and when attacked, the sale must be set aside.” ...
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d 837, 840
(1974) ... “As Whitlow requires that the foreclosure sale be set aside, the trial
court had no legal basis for granting the summary judgment.”
From the shear volume of this unlawful detainer, it should appear very
complex as it is riddled with a multitude of torts. But despite its scary volume (over

35

2,000 pages per record), Hampton summed it up in her Petition and the merits
should have been examined, as it was believed to be of great interest in setting
significant legal precedence and ultimately protecting citizens’ Constitutional
rights.
It was for the foregoing reasons that Hampton has always felt that non­
judicial foreclosures and demurrers thereto are unconstitutional. And in the case of
a UD in a post-foreclosure case, it would appear the statutes are as well, if all the
court can consider is the DOF and its filing in the court by a trustee as being “prima
facie” evidence, despite its inaccuracy or invalidity.
The courts should have examined all the evidence supporting the facts, where
there was clear evidence in the Exhibits that PROF was guilty of deceiving the
courts and knew they had acted in a manner not consistent with the law or the
provisions to the DOT. And that evidence should have changed the lower courts’
decisions. By granting Summary Judgment and sustaining the Demurrer, the court
failed its duties regarding procedural due process and abused its discretion.
In summation, the respondent has “unlawfully taken” my home, and the
lower courts have allowed them to do so, in violation of my Constitutional Rights to
due process and the protections of the law, as well as my right to defend
my.property from such “unlawful takings.” It would be a further crime for this
Supreme Court not to grant this Petition and make its decision on the merits and,
thus, allow “justice” to prevail. Petitioner knows that based on the merits of her
case, justice must prevail to uphold citizens’ Constitutional rights.

36

Petitioner believes that should this Court review the merits of this case, the
Court will conclude that the decision below was erroneous or an abuse of discretion;
that irreparable harm has resulted from the decisions below; that PROF has
unlawfully taken my home and property, placing me, an elderly woman, into
homelessness, during a Pandemic, while still attempting to seek “justice” through
this country’s superior court; and that this is of incredible interests to the public at
large, especially to those citizens facing foreclosures and unlawful detainer suits,
and particularly to those in non*judicial foreclosure states. This certainly is my hope
and prayer where our Constitutional rights to defend our property from “unlawful
takings” will prevail.
Hampton believes that had she not been denied her three*day trial by jury,
she would have prevailed on the merits, with a preponderance of evidence.
Clearly from the facts and merits laid out previously to the courts, there was
wrongdoing every step of the way beginning with the sale of the property, which she
had lived in for ten years prior to purchase, and as evident by the greed of the TBTF
banks (including Countrywide), who had caused a “bubble” to exist, by overpricing
or overestimating the values of property.
Now we are at a juncture where the TBTF banks are anxious to profit once
again from the oncoming flood of foreclosures, despite any moratorium on
foreclosures, unlawful detainers or evictions, at the expense of innocent citizens.
This court’s decision herein should be based on what this court deems to be in
the best “interest of justice” and of the citizens of these United States, and their

37

Constitutional rights to defend their property from unlawful takings and without
due process is a violation of those rights.
Hampton is also certain that given a trial by jury, which “she was deprived
of,” would have proven that PROF was not entitled to Summary Judgment, nor to
possession, and further the foreclosure should have been set aside, as the court’s
jurisprudence calls for. And the court should have found, where the circuit court
previously failed to address, that all the deeds on record should be held “void” or
“voidable” and the Deed of Trust (DOT) as “ void ab initio.and, as such, no one had
a right to possession or to the remedy to substitute a Trustee and foreclose; and
particularly where the assignment of the DOT was a nullity, as has been found in
this court in Carpenter v. Longan, 16 Wall. 271, 83 U.S. 271, 274, 21 L.Ed. 313
(1872)
Upon a review of the merits, this should be obvious from my Petition for
Appeal and the “facts” thereto, where the real “proof is in the pudding.” Further, the
court cannot grant summary judgment unless no evidence could affect the outcome
of the case and the parties do not dispute the material facts on a dispositive issue of
law. Clearly, the facts merited a review and this court should find there was a
dispute both facially and materially to the deeds that govern this unlawful detainer
and an erroneous error on judgment of the court exist; and where a jury “would
have come to but one conclusion when viewing the evidence” contrary to the court’s
decision. Without considering all the evidence submitted and what would have come
before the jury, this should be considered a clear abuse of discretion.

38

Clearly, I am a remnant from the last economical collapse and the governing
Deeds of Trust were predatory and the loan was “set to fail;” and despite the
remedies to correct the problems regarding the same, all parties beginning with
Countrywide exercised nothing more than. bad practices and procedures and
negligence in not only the initial product sold but also the servicing of that account.
Nowhere in my search have I found a case as full of torts involving Predatory
Lending, fraud in assignments, material alteration of the DOT making it void ab
initio, improper assignments and notices of the DOT, wrongful foreclosure, wrong
party foreclosing, violations of HUD requirements, violations of federal HAMP
programs, violations of Fannie Mae Guidelines, violations of Consent Orders with
the OCC/Treasury, and failure to solicit borrowers who qualify for the NMS.
It would seem that in light of the bad practices of these banks, servicers,
including Fay on behalf of PROF/US Bank, and trustees who violate their oaths,
uniform non-judicial foreclosure rules should be developed to protect citizens
nationwide from the unlawful taking of citizens’ homes without due process and in
violation of their Constitutional rights. And further, if the Fair Debt Collection
Practices Act was not passed to prevent debt collectors from engaging in abusive or
predatory practices regarding real property, then some law should be created to
protect citizens from such abuse. Obviously, I am such a victim to this crime and no
doubt that there are millions like myself, who do not deserve this abuse. It also
appears that the same should be deemed an emergency with the anticipated flood of

39

foreclosures crisis looming. It is time for the courts to stand up to these TBTF banks
and/or their servicers, and even their biased trustees.
Still further from the Motion for Reconsideration*
“Hampton had requested and the court permitted a trial by jury, but has
been deprived of proving to the court that their bench trials have been
improper, unfair, and unconstitutional given the facts and evidence herein.
Clearly, these rulings are unconstitutional! And it would appear to Hampton
that a criminal, which she is not, has every right to a trial by jury, but
Hampton’s [case] has been dismissed and not permitted to be tried by jury,
but instead by a single judge. ...”
The solution is always uniformity and clarity must be achieved. And it
appears that the solution would be to bar non-judicial foreclosures nationwide and
require parties wishing to foreclose to come to court for approval first, and a further
solution would be to establish uniform unlawful detainer statutes, particularly in
post foreclosure cases, to prevent violations to citizens’ Constitutional rights.
CONCLUSION
Petitioner believes and is confident that, if this court accepts her Petitions for
Writs of Certiorari, and these cases are heard on their merits, a “just” decision will
result to not only her benefit, but to all U.S. citizens, in protection of their
Constitutional rights, as they were created to be. I trust in God and this Superior
Court.
Petitioner respectfully request certiorari be granted for the reasons set
herein, the questions being substantial and of public importance, and thus should
be heard and decided on this appeal.
The petition for a writ of certiorari should be granted.

40

Dated- October 12, 2021

Respectfully submitted,

Kathleen C. Hampton, Petitioner, pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
Email- khampton47@yahoo.com

41

